         Office of Inspector General




September 26, 2005

WILLIAM J. MITCHELL
DISTRICT MANAGER, ATLANTA DISTRICT

SUBJECT:       Audit Report – Vending Equipment Sales and Service Data –
               Atlanta District (Report Number DR-AR-05-016)

This report presents the results of our self-initiated audit of the Postal Service’s
Vending Equipment Sales and Service (VESS) Data in the Atlanta District
(Project Number 04YG028DR002). The objective of our audit was to determine
whether the VESS data is accurate. Specifically, in this audit, we determined
whether Self-Service Vending Program (SSVP) managers have: (1) adequately
managed the VESS data to ensure the sales and service information is
accurately and completely captured, (2) accurately and timely transferred SSVP
revenue information into the Postal Service financial systems, and (3) initiated
investigative and corrective action to resolve vending credit shortages/overages.

Opportunities exist for Atlanta District officials to improve the accuracy of the
VESS data. Specifically, SSVP managers did not adequately manage VESS
data. Also, managers did not ensure sales and service information was accurate
and transferred timely to the Postal Service financial systems during fiscal years
(FYs) 2003 and 2004. As a result, the Atlanta District‘s FYs 2003 and 2004
VESS Sales Data was understated by approximately $1.31 million when
compared to Postal Service (PS) Form 8130, VESS Daily Activity Log. Our
review also disclosed vending credit accountability concerns during our analysis
XXXXXXXXXXXXXXXXX.

We recommended the manager, Atlanta District, direct vending program
managers to ensure technicians enter complete information in all required fields
of the PS Form 8130. We also recommended the district manager direct vending
program managers to ensure vending sales amounts are accurately and timely
transferred into the Postal Service financial systems and additionally, provide
training to supervisors with vending oversight on reconciling the VESS and the
Postal Service financial system and monitoring vending financial control
activities.

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX
Management agreed with our findings and recommendations and has initiatives
completed and planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in this report.

The OIG considers recommendations 1, 2, and 3 significant, and requires OIG
concurrence before closure. The OIG considers the support provided by
management detailing corrective actions taken to be sufficient to close these
recommendations.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions, or need additional information, please contact
Rita Oliver, Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William J. Brown
    John F. Landwehr
    Daryl J. Pichoff
    Steven R. Phelps
Vending Equipment Sales and Service Data -                      DR-AR-05-016
 Atlanta District



                              TABLE OF CONTENTS

 Executive Summary                                                              i

 Introduction                                                                   1

       Background                                                               1
       Objectives, Scope, and Methodology                                       2
       Prior Audit Coverage                                                     3

 Audit Results                                                                  5

       Vending Sales and Service Data                                           5
       Inaccurate and Incomplete Vending Sales Data                             5
       Recommendation                                                           6
       Management’s Comments                                                    6
       Evaluation of Management’s Comments                                      6

       Vending Sales and Service Data Not Accurate and Transferred              7
        Timely to Financial Systems
       Recommendations                                                          7
       Management’s Comments                                                    7
       Evaluation of Management’s Comments                                      8

       Vending Credit Shortages/Overages                                        9

 Appendix A. Technical Documentation                                           10

 Appendix B. Management’s Comments                                             13
Vending Equipment Sales and Service Data -                                 DR-AR-05-016
 Atlanta District

                              EXECUTIVE SUMMARY

 Introduction                  This report summarizes the results of our self-initiated audit
                               of the Postal Service’s Vending Equipment Sales and
                               Service (VESS) Data in the Atlanta District. The objective of
                               our audit was to determine whether the VESS data is
                               accurate.

 Results in Brief              Opportunities exist for Atlanta District officials to improve the
                               accuracy of the VESS data. Specifically, Self-Service
                               Vending Program managers did not adequately manage
                               VESS data. Also, managers did not ensure sales and
                               service information was accurate and transferred timely to
                               the Postal Service financial systems during fiscal years
                               (FYs) 2003 and 2004. As a result, the Atlanta District’s FYs
                               2003 and 2004 VESS Sales Data were understated by
                               approximately $1.31 million when compared to Postal
                               Service (PS) Form 8130, VESS Daily Activity Log. Our
                               review also disclosed vending credit accountability concerns
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXX.

 Summary of                    We recommended the manager, Atlanta District, direct
 Recommendations               vending program managers to ensure technicians enter
                               complete information in all required fields of the PS
                               Form 8130. We also recommended the district manager
                               direct vending program managers to ensure vending sales
                               amounts are accurately and timely transferred into the
                               Postal Service financial systems and additionally, provide
                               training to supervisors with vending oversight on reconciling
                               the VESS and the Postal Service financial system and
                               monitoring vending financial control activities.

                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXX

 Summary of                    Management agreed with our findings and
 Management’s                  recommendations. Management provided support for
 Comments                      actions implemented, such as the development of Web
                               VESS, the first Web-based system developed in the




                                             i
Vending Equipment Sales and Service Data -                              DR-AR-05-016
 Atlanta District



                               Southeast Area that allows all vending servicing employees
                               to enter vending sales data electronically. Additionally,
                               management has provided or planned financial training for
                               personnel with vending oversight responsibilities.
                               Management’s comments, in their entirety, are included in
                               Appendix B of this report.

 Overall Evaluation of         Management’s actions taken or planned are responsive to
 Management’s                  our findings and recommendations and should correct the
 Comments                      issues identified in the findings. The OIG considers the
                               support provided by management detailing corrective
                               actions taken to be sufficient to close the recommendations.




                                             ii
Vending Equipment Sales and Service Data -                                            DR-AR-05-016
 Atlanta District

                                      INTRODUCTION
    Background                    In fiscal year (FY) 2004, the Postal Service’s Self-Service
                                  Vending Program (SSVP) generated revenue of
                                  $576 million. Of that amount, $13.9 million was generated
                                  by the Atlanta District’s SSVP.1

                                  Vending Equipment Sales and Service (VESS) is an online
                                  reporting system database offering real-time tracking of
                                  product sales, miscellaneous costs, maintenance, and
                                  service of Postal Service vending machines. Data
                                  maintained in VESS is derived from the monthly2 sales and
                                  machine activity data3 recorded on the Postal Service (PS)
                                  Form 8130, VESS Daily Activity Log. District retail
                                  specialists input this data into VESS and generate
                                  summaries to monitor compliance. District, area, and
                                  headquarters retail specialists generate summaries to
                                  monitor revenue and workhour costs and ensure optimum
                                  revenue goals are achieved and workhour costs remain
                                  within specified guidelines.

                                  In January 2005, the Web Vending Activity Reporting
                                  System (Web VARS) replaced VESS. Web VARS is an
                                  online database that tracks vending activities including
                                  equipment inventories, product sales, costs, and
                                  maintenance. Web VARS stores vending sales information,
                                  hours spent supporting vending equipment, equipment type,
                                  equipment location and information on servicing employees.
                                  During the fieldwork stage of this audit, data from VESS
                                  was migrated into Web VARS and in January 2005, the
                                  Atlanta District began to enter sales recorded on the PS
                                  Form 8130 into Web VARS.

                                  Self-service postal center (SSPC) technicians prepare a PS
                                  Form 1412, Daily Financial Report, showing stamp stock
                                  received, stamp stock returned and cash deposits for input
                                  into the Standard Accounting for Retail system (SAFR).4
                                  XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                  XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                  XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                  XXX

1
  FY 2004 Vending Revenue from Postal Service’s Enterprise Data Warehouse (EDW) system.
2
  Handbook PO-102, Self Service Vending Operational and Marketing Program, Section 712, May 1999
(updated with Postal Bulletin revisions through April 29, 2004).
3
  All self-service vending-related time, out-of-service codes, and costs must be reported.
4
  Handbook F-1, Post Office Accounting Procedures, Section 212.1, November 1996 (updated with Postal
Bulletin revisions through June 9, 2005).


                                                   1
Vending Equipment Sales and Service Data -                                           DR-AR-05-016
 Atlanta District

                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXX Vending revenue activity
                                 presented in the financial statements is generated when
                                 vending revenue data from the PS Form 1412, Daily
                                 Financial Report, is input via SAFR to the Shared
                                 Services/Accounting system at the Eagan Accounting
                                 Service Center.5 Ideally, vending revenue data captured
                                 and maintained in VESS (Web VARS) should reconcile with
                                 the vending revenue data reported in the financial systems
                                 in order reflect accurate vending revenue in the financial
                                 statements.
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXX

                                 Supervisory personnel must examine the self-service
                                 vending credits XXXXXXXXXXXXXXXXXXXXXX.
                                 Overages and shortages of $100 or more are reported to
                                 the Postal Inspection Service (IS) and the Office of
                                 Inspector General (OIG) through the completion of a PS
                                 Form 571, Discrepancy of $100 or More in Financial
                                 Responsibility.6

    Objectives, Scope,           The objective of our audit was to determine whether the
    and Methodology              VESS data was accurate. Specifically, in this review, we
                                 determined whether SSVP managers have: (1) adequately
                                 managed the VESS data to ensure the sales and service
                                 information is accurately and completely captured,
                                 (2) accurately and timely transferred SSVP revenue
                                 information into the Postal Service financial systems, and
                                 (3) took investigative and corrective action to resolve
                                 vending credit shortages/overages.

                                 To accomplish our objectives, we used a total universe of
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 XXXXXXXXXXXXXXXXXXXXXXXXXXX From this
                                 universe, we analyzed a sample of 149 technician/AP
                                 (month) combinations. To determine if managers
                                 adequately managed the VESS data, we reviewed
5
 Handbook F-1, Section 212.1.
6
 Handbook PO-102, Sections 642.32c and 643.31b, May 1999 (updated with Postal Bulletin revisions
through May 26, 2005) and Section III, 2A of the Memorandum of Understanding between the OIG and IS,
April 29, 2005.


                                                  2
Vending Equipment Sales and Service Data -                                                DR-AR-05-016
 Atlanta District

                                   documentation and applicable policies and procedures;
                                   visited Postal Service facilities; interviewed district retail
                                   managers and staff; traced FYs 2003 and 2004 data for the
                                   Atlanta District retrieved from VESS back to the source
                                   document, PS Form 8130 to (1) determine if all data is
                                   recorded and accurately input; and (2) reconcile the VESS
                                   revenue data with SAFR to determine if the vending
                                   revenue is accurately reported in the Postal Service
                                   financial statements. Using the EDW,7 we retrieved vending
                                   revenue information from the PS Form 1412, to trace back
                                   vending revenue data entered into SAFR.

                                   We conducted this audit from November 2004 to
                                   September 2005 in accordance with generally accepted
                                   government accounting standards and included such tests
                                   of internal controls as considered necessary under the
                                   circumstances. We relied on data obtained from the VESS,
                                   Web VARS, SAFR and EDW systems. We did not directly
                                   audit these systems, but performed a limited data integrity
                                   review of the VESS and Web VARS systems to support our
                                   data reliance. We reviewed a sample of source
                                   documentation for each of the systems8 and found the data
                                   to be sufficiently reliable to meet the objectives of this
                                   review. We did not, however, test the validity of the data
                                   and controls over the SAFR and EDW systems.

    Prior Audit Coverage           The OIG has issued two audits related to our objectives.

                                   Maintenance of Self-Service Postal Centers (Report
                                   Number, RQ-MA-99-001, September 9, 1999). The report
                                   stated that increasing controls over the SSPCs in the areas
                                   of technician supervision, auditing, and accountability may
                                   enable Postal Service officials to avoid future revenue
                                   losses, which averaged $900,000 a year for FYs 1996
                                   through 1998. The OIG recommended increasing the
                                   supervisor to technician ratio, providing training to non-
                                   technician personnel who service vending machines and
                                   providing guidance to ensure existing vending machine
                                   audits and revenue shortage procedures are consistently
                                   and equitably applied by supervisors.




7
  The EDW provides a common source of accurate corporate data across organizations to a wide variety of
users. The vision of the EDW is to provide a single repository for managing the Postal Service's corporate
data assets.
8
  The source document for VESS/Web VARS is the PS Form 8130.


                                                     3
Vending Equipment Sales and Service Data -                DR-AR-05-016
 Atlanta District

                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                             4
Vending Equipment Sales and Service Data -                                DR-AR-05-016
 Atlanta District

                                   AUDIT RESULTS
    Vending Equipment         Opportunities exist for Atlanta District officials to improve the
    Sales and Service         accuracy of the VESS data. Specifically, SSVP managers
    Data                      did not adequately manage VESS data. Also, managers did
                              not ensure sales and service information was accurate and
                              transferred timely to the Postal Service financial systems
                              during FYs 2003 and 2004. As a result, Atlanta District
                              FY 2003 and 2004 VESS sales data was understated by
                              approximately $1.31 million when compared to the PS
                              Form 8130. Our review also disclosed vending credit
                              accountability concerns
                              XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                              XXXXXXXX

    Inaccurate and            Managers did not adequately manage VESS data. Our
    Incomplete Vending        review of sales data reported by 18 technicians1 during FYs
    Sales Data                2003 and 2004 showed that vending sales data was
                              inaccurate and/or incomplete in VESS.

                              This occurred because the district retail office did not:

                                  •   Enter correct sales amounts into VESS.

                                  •   Review sales data recorded on PS Form 8130 by the
                                      technicians.

                                  •   Enter all sales data into VESS.

                                  •   Enter sales amounts in the correct AP in VESS.

                              Also, PS Forms 8130 were sometimes illegible. As a result,
                              Atlanta District VESS sales data for the technicians sampled
                              was understated by approximately $522,000. Based on
                              projection of the sample results, VESS sales data was
                              understated when compared to the PS Form 8130 by
                              approximately $1.31 million in the Atlanta District during
                              FYs 2003 and 2004.9 Therefore, program managers may
                              not have an accurate representation of vending sales to
                              make sound business decisions regarding the SSVP.

                              Handbook PO-102, Section 712, states, “Each employee
                              associated with self-service vending equipment must
                              complete a PS Form 8130 detailing the equipment serviced
                              and maintained during each month.” Furthermore,
9
    See Appendix A.


                                             5
Vending Equipment Sales and Service Data -                              DR-AR-05-016
 Atlanta District

                              Handbook PO-102, Section 713 directs all servicing
                              personnel (SSPC technicians and operators) to record
                              the total sales amount in the total sales box on the PS
                              Form 8130. It also advises these instructions must be
                              followed each time money is removed from a machine
                              XXXXXXXXXXXXXXXXXXXXXXXXXXXX SSPC
                              technicians should forward the PS forms to the District Retail
                              Office for input by the retail specialists.

                              We discussed our concerns regarding the PS Forms 8130
                              with Atlanta District Retail officials. During our discussion,
                              district Retail officials agreed with our concerns and
                              discussed the development and implementation of Web
                              VESS in the Atlanta District. Web VESS is a Web-based
                              system that allows the technicians to enter their vending
                              sales data electronically. Retail officials stated the
                              implementation of this application has eliminated issues with
                              calculation and recording errors and illegible entries.

 Recommendation               We recommend the manager, Atlanta District, direct vending
                              program managers to:

                              1. Ensure technicians enter complete information in all
                                 required fields of the PS Form 8130, Vending Equipment
                                 Sales and Service Daily Activity Log.

 Management’s                 Management agreed with our finding and recommendation.
 Comments                     The Atlanta District developed and implemented Web VESS,
                              the first Web-based system developed in the Southeast
                              Area that allows all vending servicing employees to enter
                              vending sales data electronically.

 Evaluation of                Management’s comments are responsive to our finding and
 Management’s                 recommendation. Management’s actions taken should
 Comments                     correct the issues identified in the finding. The OIG
                              considers the support provided by management detailing
                              corrective actions taken to be sufficient to close the
                              recommendation.




                                             6
Vending Equipment Sales and Service Data -                                              DR-AR-05-016
 Atlanta District



 Vending Sales and                Managers did not ensure sales and service information was
 Service Data Not                 accurate and transferred timely to the Postal Service
 Accurate and                     financial systems during FYs 2003 and 2004. Our review
 Transferred Timely to            XXXXXXXXXXX showed that sales data was incorrectly
 Financial Systems                posted to the wrong account identifier code. As a result, the
                                  vending revenue data was understated in the Postal Service
                                  financial systems by approximately $308,000
                                  XXXXXXXXXXXXXX However, the sample does not allow
                                  us to state definitively whether the SAFR is overstated or
                                  understated when compared to VESS.10

                                  Atlanta District Retail and Internal Control Group (ICG)
                                  officials indicated they do not reconcile the VESS and SAFR
                                  systems. The Postal Service currently does not have criteria
                                  in place regarding reconciliation between VESS and
                                  SAFR.11 District Retail and ICG officials stated that most
                                  technicians and supervisors have not been adequately
                                  trained to reconcile sales data in VESS (Web VARS) with
                                  sales data in SAFR. Based on our discussions, ICG officials
                                  indicated that they plan to provide district supervisors
                                  responsible for oversight of vending activities with training.

 Recommendations                  We recommend the manager, Atlanta District, direct vending
                                  program managers to:

                                  2. Ensure vending sales amounts are accurately and timely
                                     transferred into the Postal Service financial systems.

                                  3. Provide training to supervisors with vending oversight on
                                     reconciling the Vending Equipment Sales and Service
                                     and Standard Field Accounting for Retail vending sales
                                     data and monitoring vending financial control activities.

 Management’s                     Management agreed with our finding and recommendations
 Comments                         2 and 3. Management will establish a process to ensure
                                  vending data reported is reconciled with sales data in SAFR.
                                  In addition, management conducted training in FY 2005 on
                                  vending financial responsibilities for all managers and
                                  supervisors responsible for SSPC technicians.




10
  See Appendix A.
11
  Because this is an issue to be addressed at the Postal Service Headquarters level, we are not making any
further comments on this issue at this time.


                                                    7
Vending Equipment Sales and Service Data -                               DR-AR-05-016
 Atlanta District



                              Management also plans to provide training in FY 2006 for all
                              other non-technician personnel, managers, and supervisors.

 Evaluation of                Management’s comments are responsive to our finding and
 Management’s                 recommendations 2 and 3. Management’s actions taken or
 Comments                     planned should correct the issues identified in the finding.
                              The OIG considers the support provided by management
                              detailing corrective actions taken to be sufficient to close the
                              recommendations.




                                             8
Vending Equipment Sales and Service Data -                                DR-AR-05-016
 Atlanta District



 Vending Credit               Our review disclosed vending credit accountability concerns
 Shortages/Overages           XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX We
                              discussed our concerns regarding vending credit
                              accountabilities in general with Atlanta District ICG officials.
                              During our discussion, ICG officials indicated they had
                              concerns involving vending credit accountabilities with
                              XXXXXXXXXXXXXX

                              XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                              XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                              XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                              XXXXXXXXXXXXXXXXX




                                             9
Vending Equipment Sales and Service Data -                           DR-AR-05-016
 Atlanta District

             APPENDIX A. TECHNICAL DOCUMENTATION

 STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF
      VENDING EQUIPMENT SALES AND SERVICE DATA

Purpose of the Sampling

One of the objectives of this audit was to assess whether VESS data is accurate.
In support of this objective, the audit team employed a stratified random sample
of FYs 2003 and 2004 PS Form 8130 for the Atlanta Customer Service District.

Definition of the Audit Universe

The final audit universe, for the SSVP of the Atlanta District, consisted of
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXX

Sample Design and Modifications

The initial test scope covered 13 APs in FY 2003 and the first 6 APs in FY 2004.
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX. We had no information
regarding the typical variability of the reported revenue amounts. Therefore, we
based the sample size on projection of an attribute, such as the fraction of
records in error, assuming a 50 percent expected error rate, a 95 percent
confidence interval, and a desired precision of +/-7.5 percent.

The team subsequently determined that FY 2003 data included an extra AP as
part of the Postal Service transition to monthly accounting. In addition, data for
APs 7 through 12 in FY 2004 were available. Because the team had already
initiated the collection of the PS Forms 8130 for the initial sample of
114 combinations, we included the 7 additional periods in a second stratum
consisting of 126 combinations
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXX

Within each stratum, we selected the combinations for testing using simple
random sampling without replacement.




                                             10
Vending Equipment Sales and Service Data -                           DR-AR-05-016
 Atlanta District



                                    Number of             Number of
                                combinations in audit   combinations in
                                     universe              sample
Stratum I: FY 2003,
AP 1 to AP 13 and                            342               114
FY 2004, AP 1 to AP 6
Stratum II: FY 2003,
AP 14, and FY 2004,                          126               35
AP 7 to AP 12
Total
                                             468               149

Upon review of the raw data collected, we observed that the VESS system
reported no revenue for AP 14 of FY 2003; Postal Service management advised
us that, in VESS, data for APs 13 and 14 were combined and reported in AP 13.
Analyzing this interpretation of the data, we found the VESS AP 13 data were still
only (approximately) half of those found on the PS Forms 8130 and in SAFR.
We were unable to resolve this discrepancy. Therefore, for our projections, we
replaced the APs 13 and 14 data with an imputed amount from the remaining
APs.

Statistical Projections of the Sample Data

Using as our input the revenue amount reported for all vending equipment in a
sampled technician-AP combination, we projected several variables:

•   The revenue amount reported on PS Forms 8130 for FY 2004.

•   The difference between the amounts reported on the PS Forms 8130 and in
    VESS for FYs 2003 through 2004.

For comparison of PS Form 8130 data to the financial system (SAFR), we were
limited to SAFR data for FY 2004. However, the audit team was able to provide
that data in total, for all technician and AP combinations, for FY 2004. Therefore,
we were able to eliminate uncertainty in the SAFR total, which we then compared
to the projected amount from the PS Forms 8130.

For projection of the above variables and attribute to the audit universe for the
Atlanta District of the Southeast Area during FYs 2003 and 2004, we applied the
estimation formulas of a population total or proportion for a stratified sampling
with simple random sampling in each stratum, as described in Model Assisted
Survey Sampling, Särndal, Swensson, and Wretman, 1991.




                                               11
Vending Equipment Sales and Service Data -                       DR-AR-05-016
 Atlanta District

PS Form 8130 versus VESS

To determine whether the revenue amount reported in VESS for each technician
in each AP is accurately and completely entered from the PS Form 8130, we
compared the revenue data from VESS to the revenue data from the PS
Form 8130. Based on projection of the sample results, we are 95 percent
confident that VESS is between $0.74 million and $1.89 million understated
compared to the PS Forms 8130; the point estimate is that VESS is understated
by $1.31 million. This understatement amount represents 3 percent to 9 percent
of the projected total revenue reported on PS Forms 8130 for FYs 2003 and
2004. As VESS is a management information tool, decision-makers may not
have an accurate representation of vending revenue if they rely on VESS.

PS Form 8130 versus SAFR system

To determine the accurate recording of PS Form 8130 data in the Postal Service
financial systems (SAFR), we compared the projected PS Form 8130 total
amount for PS FY 2004 to the cash remitted from the SAFR system in FY 2004.
Based on projection of the sample PS Form 8130 results, we are 95 percent
confident that the FY 2004 revenue amount reported on the Form 8130 is
between $9.19 million and $11.30 million. Because this confidence interval
includes the cash remitted amount reported in SAFR, $9.49 million, we cannot
say that SAFR is either overstated or understated compared to the PS Forms
8130. We accept that SAFR accurately represents the revenue from the PS
Forms 8130 for FY 2004.




                                             12
Vending Equipment Sales and Service Data -        DR-AR-05-016
 Atlanta District

              APPENDIX B. MANAGEMENT’S COMMENTS




                                             13
Vending Equipment Sales and Service Data -        DR-AR-05-016
 Atlanta District




                                             14
